OIG Audit Report GR-40-08-006

Compliance with Standards Governing Combined DNA Index System Activities at the
Alabama Department of Forensic Sciences, Huntsville Laboratory, Huntsville, Alabama

Audit Report GR-40-08-006


September 2008
Office of the Inspector General


Executive Summary


The Audit Division, Office of the Inspector General has completed an audit of compliance with standards governing Combined DNA Index System (CODIS) activities at the Alabama Department of Forensic Sciences, Huntsville Laboratory (Laboratory). The Federal Bureau of Investigation’s (FBI) CODIS program blends forensic science and computer technology to provide an investigative tool to federal, state, and local crime laboratories in the United States, as well as those from selected international law enforcement agencies . The CODIS program allows laboratories to compare and match DNA profiles electronically to assist law enforcement in solving crimes and identifying missing or unidentified persons.1   The FBI’s CODIS Unit manages CODIS and is responsible for developing, providing, and supporting the program to foster the exchange and comparison of forensic DNA evidence.
 The FBI implemented CODIS as a distributed database with hierarchical levels that enable federal, state, and local crime laboratories to compare DNA profiles electronically. The hierarchy consists of three distinct levels that flow upward from the local level to the state level and then, if allowable, the national level. NDIS, the highest level in the hierarchy, is managed by the FBI as the nation’s DNA database containing DNA profiles uploaded by law enforcement agencies across the United States. NDIS enables the laboratories participating in the CODIS program to electronically compare DNA profiles on a national level. The State DNA Index System (SDIS) is used at the state level to serve as a state’s DNA database containing DNA profiles from local laboratories and state offenders. The Local DNA Index System (LDIS) is used by local laboratories.
 The objectives of our audit were to determine if the: (1) Laboratory was in compliance with the NDIS participation requirements; (2) Laboratory was in compliance with the Quality Assurance Standards (QAS) issued by the FBI; and (3) Laboratory’s forensic DNA profiles in CODIS databases were complete, accurate, and allowable for inclusion in NDIS.
 We determined that the Laboratory was generally in compliance with those standards governing CODIS activities that we reviewed. However, we noted some exceptions during our review. Specifically, we noted the following. 

 For one of seven forensic-candidate NDIS matches we reviewed, the Laboratory did not document timely initiation of the confirmation process and did not complete its match resolution process in a timely manner. For this case, the Laboratory resolved the candidate match 210 business days after it received the Match Report.2   The CODIS Administrator told us the delay occurred because she took extended leave soon after receiving the Match Report from CODIS and other Laboratory staff did not notice that the match had not been confirmed. The other staff said they had initiated the confirmation process timely, but did not document that effort. Late confirmation of matches increases the time required to resolve cases. However, we consider the single late match to be an isolated case and make no recommendation 


 Laboratory staff manually entered specimen numbers and profiles into CODIS. As a result of errors during the manual entry, specimen numbers were entered incorrectly into CODIS. The Laboratory uploaded three forensic profiles with incorrect specimen numbers into the Local DNA Index System (LDIS) and the profiles were subsequently uploaded to NDIS. While these errors had each been corrected by the end of our audit work, incorrect specimen numbers in CODIS could delay the match confirmation process. 

 We made one recommendation to ensure the Laboratory’s current procedures are sufficient to ensure correct specimen numbers are entered into CODIS. T he Laboratory’s compliance with standards governing CODIS activities is discussed in detail in the Findings and Recommendations section of the report. Our audit scope and methodology are detailed in Appendix I of the report and the audit criteria are detailed in Appendix II. 
We discussed the results of our audit with Laboratory officials and have included their comments in the report as applicable. 



Footnotes

DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells that contains encoded information necessary for building and maintaining life. Approximately 99.9 percent of human DNA is the same for all people. The differences found in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA. 
After CODIS determines that two or more DNA profiles match, an electronic report is generated by CODIS and automatically distributed to the laboratories responsible for the matching profiles.








Return to OIG Home Page